PRICING INFORMATION FOR THE PRIVATE BANKING WORLD ELITE MASTERCARD® CREDIT CARD
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases
This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers
Prime Rate plus 5.99%
This APR will vary with the market based on the Prime Rate.
APR for Cash Advances
Prime Rate plus 10.99% for Non-Overdraft Cash Advances.
(Non-Overdraft & Overdraft)
Prime Rate plus 10.99% for Overdraft Cash Advances.
These APRs will vary with the market based on the Prime Rate.
Penalty APR and When it
Prime Rate plus 21.99%
Applies
This APR will vary with the market based on the Prime Rate.
This APR may be applied to your Account if you fail to make the required minimum
monthly payment within 60 days of the respective payment due date.

Prime Rate plus 5.99%

Paying Interest

Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

How Long Will the Penalty APR Apply?: If your APRs are increased for this
reason, the Penalty APR will apply until you make six consecutive minimum
payments when due.
Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on Purchases if you pay the entire balance by the due date each
month. We will begin charging interest on Cash Advances and Balance Transfers on the
transaction date.
If you are charged interest, the charge will be no less than $2.50.
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Payment Information
Any amount that exceeds your Revolving Credit Line will be added to your minimum payment and will be due and payable
when you receive your periodic statement. The Revolving Credit Line is the maximum dollar amount of your Account
balance that you can carry over from month to month, less Fees and Interest Charges.
Fees
Transaction Fees
- Balance Transfer

Either $10 or 3% of the amount of each Balance Transfer whichever is greater.

- Non-Overdraft
Cash Advance
- Overdraft Cash Advance

Either $10 or 3% of the amount of each Cash Advance, whichever is greater.

- Foreign Transaction
Penalty Fees
- Late Payment

None

$5 for each Cash Advance.

Up to $40

How We Will Calculate Your Balance: We use a method called “Daily Balance” (including new Purchases and Fees).
See the account agreement for more details.
Prime Rate: The Prime Rate used to determine the APR on your Account is the U.S. Prime Rate published in The Wall
Street Journal in its column called “Money Rates” on the last business day of each month. Although each Daily Periodic
Rate is determined by an index published prior to the first day of each calendar month, the respective Daily Periodic Rate
will only become effective and charged as of the first day of the monthly billing period following the respective calendar
month in which the index is so published. No representation is made that the U.S. Prime Rate is the lowest, the best or
the favored rate of interest. If for any reason The Wall Street Journal no longer publishes the “Money Rates” column, then
we will choose a new index based on comparable information. An increase in the Prime Rate will cause your interest rate
to increase and may cause your minimum monthly payment to increase.
Daily Periodic Rate: The Daily Periodic Rate for all APRs equals the APR divided by 365.

© 2021 Commerce Bancshares, Inc.

